ProviDsd

S.ciT Me JJ&- : 0.0-180-!

M/,‘uiSoiULfa
APR 1 $ 2021
rNrn,

Xn the Supreme Courtof the Cuoited, states

XAJ PE

WJ9MS M. MPXm
Petitioner

Petition For Rehearing

the Petitioner^ IMaure ft). Seaton. a pro se prisoner in
the State custody of the florid#, flepartme/t of corrections,
pursuant to Pule ¥f-J^ of the Supreme Courtof The knifed
States? ernes before this honorable Supreme courtiustceS
for good cause in good faith, in the interestfinality ofJustice
and not it cause ary un-neeessary Map in this cause. Piles
this Petfon for Rehearing; whereby, establishing an
extraordinary- excepfbnal intervening circumstance of a,
Substantial or consftectond control//)g effect* that
reoj/UiYes this court to exercise its discrete/ary power to
grant Habeas Corpus relief and have For petitioner to
proceed Xn forma. Pauperis. (See Courtb order attach )
Xn support hereof pefftfoner would set Forth the
Following substantial-essential facts and eoniioling legal
authority by this court

/

the issue in petitioner's case, before this court is of substantial
merit of ihe 51? P* and- Ft* Amendmentrights VJoJat/on of ihe
Wiled States Constfuton and ihe oontfoling decision held in
Mathis \f. United Statin, 34) U.SJ9 88 S.ct t&3} SLo t.edxd.
381 CHW'The- 5^and £** Amendment of ihe anted states
Ccnsttuton ghes substantial conifoling effectof this courts
controling decision in Mathis V. US. thatretires any, law
enforcemerftauthority to, before q/uesifmng an accused who
is already in custody by ofher Jaw enforcementagency. To
udeaquoftily advise The accused of his Federal protected
Miranda rights To remain Sihntand To have if>e right To
ihe assistance of counsel present* during g/uestfehing.
The basis of ihe state courts decision in petitioner h case
Was thoct since pettoner was already in the comfy Sheriff 7S
Custody and he was already advised of his Mirandot, rights
by a sheriff officer, petitioner's questioning by a, city local
police officer^ who's a second authority from a obiferenff
branch of law enforcement agency; about*a differentoffense
from what petitioner was already in the county sheriffs
Custody fory the Second agency authority did ruff have to
re-advised petitioner of his Miranda rights before questioning
Distinctly and applicable to the factual basis of
petitioner1S case is the decision held in \NeStaver M. it. 5.,
Mf U.S. F36, $6 S. cf JfoQ., IP l. ed.ad. 6W CMft), decided
With Miranda V. Arizona, that states:

st although the two law enfarement authorities ore legally distinct
cwd the mme5 far which tbeu interrogated VJesfover far were
different.J the impact on him was thatof a cont’AUouS period
op yaestonfng.
the justces went on to held that
^U)e do nit suggest that Jaw enforcementauthorities are
precluded From oyuestbning any individual who has been held
For a period oF time by other authorities and interrogated
by them Without proper warning, ft differentcase woaid
be presented if an accused were taken info custody by fhe
second authority, removed bath in time and place from h/s
original surroundings, and then adequately be advised of
his rights and given ah opportunity t exercise them. id. at
Wf,
S.ctyof I6M.
'the derision held in WestoVer. supro^ are distinctly
applicable to the Paciaal basis oppetitioner's case because
peiffioners case involved two differentbranches of law/
enforcement aurfhorites and pettoneris movement' from one
place to another by the aufhoriteS’, ahowt two different*
cases, and questioned Withoutbeing advised of his Miranda rights.
Fbe state court1S decision in petitioner0s cose premised
Upon the Same unSubsidritoCied reasoning this court's
controling decision held in Mathis \J. tinted states, that
“there is no substance io such a distinction, and in effect it
goes against the whole purpose of the Miranda decision
which u/as designed t give meaningful protection to the
■gtti nmendmerit rights f id-7at 4^ $8 S. ct^atf5#5.

'the, start courts contrary deeision it tb’s court's
Control ing ePPect Op MatflJS V. Untied State S Supra, CaUSed
the conviction and unJawFul custody atpetii'oncr that
resulted in the Pundounentdl miscarriage atyusifce.
U/herehg, creating dun intervening eircarnsidnces Par this court
up a substantia! controling eFPect
'The constHuftonal violation that caused The unlawPaJ
Conviction and custody oP peiit'oner, that deprived him op
his Fundamental liberty, presents an exceptional-extraordinary
circumstance Par this scurf' to intervene' and redress such
Constitutional violation,
Hdecyuate rdicp cannot' he obtained in any other Form or
Prom any other court*] thus, exira&rdinary- exceptional
circumstances warrants the exercise op the courts
intervening discretionary power for Habeas corpus rdiep
the Pdlowing essential-Substantial! Pacts, not'previously
presented provides exceptional-extraordinary circumstances
in petitioner's cas-e bePore this courts For the injustice thtff
was imposed upon petitioner, to be redress upon Habeas
corpus rdiep by this court's Justices intervening For
the Finality op justice:
Petitioner was J9 years old, had a 5^ grade #r kss level
of education, and did n&f had any prior Felony arrest record,
as a juvenile nor as an adult at the time of his arrest
tn order to elicit*tte incriminating Statement Pram
petitioner, the city local police oFitcer testPied that he did
¥

not advised petitioner of his Miranda rights and a sheriff
officer detailed in his police reportthat he ashed petitioner
about his belief in (fad, reading the Bibhj and being a
CrbrisHah^ d& petitioner believe that confession is good for
his SCO') and thatthat i'6 whatPod monied petitioner 1* do.
'The city local police officer even admitted upon cross-'examination
that -the incriminating statement*petitioner made mas
inconsistent' u/iih the details of the crime.
the C.S.X. officer testified ihodhe hand no evidence
nor the medical and forensic evidence tested by the f. B .%.>
Connecting petitioner to the crime, there was no eye
witness identifying petitioner as the perpretrator of the crime.
the victim nor anyone did not die nor received ang physical
injury during the commission of the crime
Petitioner was Sentenced to life in prison and has been
deprived of his fundamental liberty and imprisoned for
over cl£ years now, disprte the fundamental miscarriage
of Jiustfbe thatresulted in his unlawful conviction and

Custody.

Since petitioner1s imprisonment*he has recei ved his
& E.& and has received other certificates and attended
other self betterment'programs.
the fouctdai evidence of petitioner’'s case establishes the
Subtbtai merits of the S*?and ft* mendment rights
Violation that warrants thegrouting of leave by this courts
justices for petitioner to proceed xn forma Pauperis and
and Habeas Corpus relief from custody.
5

S.cf CM No: 20-7307

IN ihe SUPRBMF COM'f&F The miled SifcfeS

ZN KB Wfly/JB M. Mtrfdri,
PeiFTtoncr

CeirtiFicaiioft of PdTiPonef

'the, Peirffonetj LUatjne HI. P&aiFn. cc pro se prisoner
in ihe sFoTe CusT&dy oF The Florida, 0eparimerff oF
Ccrrecii'an, Pies ihis PeFFon} it/hereby, eeriPFymj rihocf'
ihe Fastis sefForfh Therein his PeTrfjbn For Rehearing is
PesTrieied To ihe qroands Specified in paragraph TZuoca.')
of Kbit Lth-1 dF The Supreme Cour'f oFrihe (Uhiied diodes,
and ihaf The f&Tffion For Rehearing is Filed in good Foiih
and ruff To cause any delay in This Cause.

FLlaXFF

fet'foher/P,risoner
MTayne M. Seocffn

Pro Se

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
March 22, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Wayne M. Beaton
Prisoner ID #469447
Florida State Prison
P.O. Box 800
Raiford, FL 32026
Re: In Re Wayne M. Beaton
No. 20-7307
Dear Mr. Beaton:
The Court today entered the following order in the above-entitled case:
The motion of petitioner for leave to proceed in forma pauperis is
denied, and the petition for a writ of habeas corpus is dismissed. See Rule
39.8.

Sincerely,

Scott S. Harris, Clerk

